U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                           Review of FBI
                     Interactions with the
                     Council on American-
                       Islamic Relations
                            September 2013




                               1-20 13-007R




               REDACTED - FOR PUBLIC RELEASE
                                      TABLE OF CONTENTS



      BACKGROUND                    ...................................................................... 1
       Introduction          . . . . . . . . . . . . . . . .. . . . . . . . . . .. .. .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
       Purpose, Scope, and Methodology of the OIG Review                                                                                          ............ 2
       Background             ......................................................................... 2
                   The FBI's 2008                                     for CAIR
                    ············································································· iJ
        Post-2008 Media Guidance from the FBI Office of Public
      Affairs Regarding Muslim Outreach                    ...................................... 9
                   20 11 EC "Reiterating" the
                          ............................................................................ 11
      RESULTS OF THE REVIEW                                             .................................................. 14
     Incident 1: Chicago Field Office:
  American Islamic College Speaking Engagement
  (July 20 10)   ................................................................................ 14
         Synopsis     .......................................................................... 14
         Facts Leading Up to the Event                .......................................... 14
         OIG Analysis       .................................................................... 16
     Incident 2: New Haven Field Office:
  CAIR Trainers at a Diversity Training Workshop
  (October2010)      .......................................................................... 16
         Synopsis     ......................................................................... . 16
         Facts Leading Up to the Event                .......................................... 17
         OIG Analysis       .................................................................... 21
     Incident 3: Chicago Field Office:
  DHS Quarterly Chicago Roundtable
  (December 20 10)     ...................................................................... 23
         Synopsis     ......................................................................... .23
         Facts Leading Up to the Event                .......................................... 23
         OIG Analysis       .................................................................... 24
     Incident 4: Philadelphia Field Office:
  CAIR Attendance at Philadelphia CREST Training
  (December 2010)      ...................................................................... 25
         Synopsis     .......................................................................... 25
         Facts Leading Up to the Event                .......................................... 25
         OIG Analysis      .................................................................... .27
U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
     Incident 5: Philadelphia Field Office:
  Pennsylvania Human Relations Task Force Meetings
  (August 2011 -June 20 12)      ....................................................... 29
        Synopsis     .......................................................................... 29
        Facts Leading Up to the Event                .......................................... 29
        OIG Analysis       .................................................................... 30
     CONCLUSION AND RECOMMENDATIONS                                    ........................... 31
   APPENDIX I: FEDERAL BUREAU OF INVESTIGATION'S
 RESPONSE TO DRAFT REPORT    ................................................ 34
     APPENDIX II: ACRONYMS                     .................................................... 35
     APPENDIX III: CLASSIFIED SOURCE DOCUMENTS                                        ............ 36




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                    BACKGROUND


    Introduction

       Since the summer of 2008, the Federal Bureau of Investigation
(FBI) has had in place policy for its field offices that was intended to
significantly restrict non-investigative interactions with the Council on
American-Islamic Relations (CAIR). CAIR is a non-profit group whose
website states that it is operating in America "to enhance understanding
of Islam, encourage dialogue, protect civil liberties, empower American
Muslims, and build coalitions that promote justice and mutual
understanding. "I

                The FBI originally established this policy in response to a
criminal investigation and prosecution by the Department of Justice in
which CAIR and other organizations were named as unindicted co-
conspirators in a terrorism financing case. As a result of the
investigation and pro       ·   the FBI determined that it needed a
unified and coordinated                     sharply circumscribing FBI
non-investigative outreach activities with CAIR, in part, to "ensure that
the FBI is not supporting individuals who support extremist or terrorist
ideologies." Yet, our review identified           tissues with the way the
FBI implemented the                       We found that, in three of five
specific incidents we reviewed, this resulted in a failure to coordinate as
required by t h e - and a number of subs~s with
CAIR that we found to be inconsistent with t h e -


      From 2009 through 2011, the FBI's Office of Public Mfairs also
sent out several guidance memoranda on the topic of Muslim outreach
and the FBI's relationship with CAIR. These guidance memoranda
indicated that the FBI had determined that CAIR was not an appropriate
partner for formal liaison activities. The guidance memoranda were
issued to FBI field office media coordinators and included background
information and suggested responses for anticipated questions from the
media regarding the FBI's relationship with CAIR.



       1 See www.CAIR.com. According to its website, CAIR was established in 1994
and has a national headquarters in Washington, D.C., and 28 chapter offices. These 28
chapter offices fall within the operational area of responsibility of 27 FBI field offices.


U.S. Department of Justice                                                                1
Office of the Inspector General
Evaluation and Inspections Division
    Purpose, Scope, and Methodology of the OIG Review

       Mter receiving a congressional request to review the FBI's non-
investigative interactions with CAIR, the Office of the Inspector General
(OIG) initiated this review in March 2012 to examine the clarity of the
FBI's policy and guidance regarding interactions with CAIR and the FBI
field offices' compliance with the policy and guidance. Our review
focused on five specific interactions between the FBI and CAIR that we
learned took place from 2010 through 2012 at three FBI field offices:
New Haven, Connecticut; Chicago, Illinois; and Philadelphia,
Pennsylvania.

                 We interviewed 15 FBI officials in the Washington, D.C.,
New Haven, and Chicago Field Offices as well as FBI H~
~ormer and current officials of the F B I ' s -
- a n d Office of Public Affairs (OPA).2 For our review of the
incidents arising out of the Philadelphia Field Office, we requested a
written explanation as to one incident and reviewed e-mails between the
field office, OPA, and                                 as to the other
incident. For our review overall, we examined over 5,000 pages of
classified and unclassified e-mails, policies, testimony, and other
documents.

    Background

                  In 2008, -developed and implemented what it termed
a                        on CAIR that was designed to significantly alter how
FBI field offices interacted with CAIR ~tatives in connection with
community outreach activities.3 T h e - addressed only non-
investigative community outreach interactions and was not intended to
affect field offices' interactions with CAIR representatives with regard to
civil rights complaints or criminal investigations.




       2   See Appendix III.




U.S. Department of Justice                                                  2
Office of the Inspector General
Evaluation and Inspections Division
           In July 2008, before       disseminated the
OPA, which is the FBI Headquarters' unit responsible for community
outreach activities, sent out "preliminary guidance for engaging
organizations such as [CAIRJ and other organizations.''S Specifically with
regard to CAIR, this July 2008 OPA EC "recommended and encouraged"
in general terms that field offices implement guidelines that included
refraining from participating in any CAIR-sponsored events, avoiding
being photographed with leaders of CAIR, and not engaging with CAIR in
events such as fundraisers.

                 In August 2008, -began sending a series of ECs to
FBI field offices that, over the next 4 months, would convey the FBI's
                    regarding CAIR. The ECs outlined permissible and
impermissible community outreach activities the FBI could or could not
conduct with CAIR. The ECs also stated that it was mandatory for field
offices to coordinate with -      regarding all of their interactions with
CAIR representatives.

                The FBI developed the                      in part, in light
of evidence presented in 2007 at the trial of the Holy Land Foundation
for Relief and Development (HLF) in United States v. Holy Land
Foundation et al. (Cr. No. 3:04-240-P, N.D. Tx.), linking two known
national CAIR leaders to Hamas, a specially designated terrorist
organization. CAIR was named an unindicted                      in the HLF
case because of its           t relatio     with HLF.




       4   The FBI uses a standard memorandum format to communicate directives to
the field that are uploaded into the FBI's Automated Case System. These memoranda
are referred to as Electronic Communications or ECs.

       s OPA supports FBI operations, provides direct service to the public and
enhances and maintains public trust by sharing information about the FBI
responsibilities, operations, accomplishments, policies and values. OPA achieves its
mission through management of the FBI's Media Relations and Community Outreach
Programs.


U.S. Department of Justice                                                             3
Office of the Inspector General
Evaluation and Inspections Division
                 The key elements of the                   articulated in
the latter half of 2008 are discussed below, followed by a brief discussion
of a 2011 EC that "reiterated" the -        and required t h a t -
approve any deviations from it.



                 In August 2008, -    announced the FBI's -
-        regarding interactions with CAIR in the first of a series of ECs to
all 56 FBI field offices and to OPA. During the next 4 months, -       sent
three additional ECs about the ~ sent two other ECs on
particular aspects of implemen~

                -     issued the first of the ECs on August 15, 2008. The
synopsis of the EC indicated that it "[p]rovide[d] guidance to all field
offices on interactions with CAIR and establishe[d) mandatory
coordination with        for all interactions with CAIR reJJre:seJntcttnres




        6 In April 2009, the FBI Office of Congressional Affairs wrote in response to
questions from members of Congress that "until we can resolve whether there continues
to be a relationship between CAIR or its executives with HAMAS, the FBI does not view
CAIR as an appropriate liaison partner."


U.S. Department of Justice                                                         4
Office of the Inspector General
Evaluation and Inspections Division
                The EC recognized that the -      was "a significant
deviation of FBI      toward CAIR " but went on to         that


                                               It stated that the field offices
should not invite CAIR to participate in FBI -sponsored events. The EC
also stated that if field offices were approached by CAIR to participate in
any of the specifically listed activities, the field offices should explain that
CAIR's status required further evaluation at the national level and refer
local chapters to the CAIR national headquarters for that purpose. The
EC acknowledged that there were "many close relationships between
various FBI field divisions and local CAIR chapters" and that not all local
chapters were affiliated with terrorist organizations. But the EC
concluded that "in order to stop CAIR senior leadership from exploiting
any contact with the FBI, it is critical to control and limit any contact"
with CAIR and "it is also critical for the relevant field divisions to contact
-     ... with any approach by CAIR." It further indicated that field
divisions with current                  with CAIR should contact




                 Not quite 2 months later, on October 7, 2008,- sent
an EC to all field offices that focused on annual banquets local CAIR
chapters typically held in the fall. -     requested that field offices
receiving invitations to the banquets decline in writing, using the specific
language the -       provided in the EC.

                About 2¥2 weeks later, on October 24, 2008,- sent
another EC to the field, this one focusing on what human resource
specialists and community outreach specialists were to say to CAIR

U.S.Dep~entofJustice                                                           5
Office of the Inspector General
Evaluation and Inspections Division
leaders during encounters at recruiting or outreach activities. According
to the EC, on October 21, 2008, -     learned that FBI human resource
recruiters had come into contact with CAIR       sentatives at


                       The EC included two paragraphs summarizing the
                   It then stated that the Special Agent in Charge (SAC)
        and the Director of CAIR had met on October 22, 2008, and
discussed the FBI's "parameters for any future interaction." Three of
these parameters applied to FBI human resource and community
outreach specialists:
       1) CAIR will no longer be invited to participate in any FBI-sponsored
          events and the FBI will no longer participate in any CAIR-sponsored
          events.
       2) CAIR is not excluded from open forums that are not organized/
          sponsored by the FBI.
       3) This position does not affect civil rights complaints. CAIR leaders, its
          members or any other individual can contact any FBI field office and
          file or discuss any civil rights matter at any time. These issues will
          be addressed by the civil rights divisions in the appropriate field
          offices.

                 A week later, on October 31, 2008,- sent an EC to the
field offices and to OPA to "reiterate" the guidance in the prior three ECs
on interacting with CAIR, including "mandatory coordination" with -
for "all interactions with CAIR representatives." The EC began by
referencing the prior three ECs and then provided four points of contact
in -      and two in      who could address any questions field offices
had about the            set forth in the ECs. The EC went on to state that
"uncoordinated interaction with CAIR ... can have a negative impact •
                                            and that "interaction with the
federal government in general and specifically with the FBI needs to be
         controlled and scrutinized" to ensure that the FBI

       in the United States. It then reiterated the categories of activities
from which the field division should refrain as stated in the August 15,
2008~if approached by CAIR and the requirement of coordination
with -    regarding contacts with CAIR.

               Not quite 2 weeks later, on November 12, 2008,- sent
an EC to 31 of the 56 field offices and to OPA announcing a mandatory



U.S. Department of Justice                                                           6
Office of the Inspector General
Evaluation and Inspections Division
3-hour                       coordination meeting at FBI Headquarters on
                7
November 25. The EC referenced the prior communications, which had
"clearly directed all field offices to deny CAIR, via it's [sic] local leadership
as well as it's [sic] national leadership, access to the FBI with respect to
the FBI field office and the FBI national community outreach initiatives."
According to the EC, the coordination meeting was scheduled because
the field offices were facing "unique challenges involving their established
and in some cases, long-term relationships with local CAIR chapters."
The EC stated that the senior manager for each field office or a high-level
designee must attend the meeting, either in person at the FBI's
W                                    secure videoconference.

                     and stated that the meeting was being held to
review compliance with the -

                At the November 25 meeting, the Assistant Director (AD)
for -    told the senior field office managers to comply with the
guidelines of the                     for CAIR. According to one
participant, the AD stressed that if CAIR was a field office's primary point
of contact with the Muslim community, the field office must establish an
alternative point of contact for any future community outreach activities.



                                                 and the
The presentation also summarized the language in the ECs already sent
to the field offices regarding the activities they should refrain from, such
as attending CAIR-sponsored events and allowing CAIR to conduct
cultural sensitivity training, to participate in the FBI Citizen's Academy,
or attend FBI-              events. The slides further described the




               7  The 31 field offices that initially received the EC were those that had
local CAIR chapters in their areas. However, in an additional EC dated November 20,
-     stated that "all ADICs and SACs" were required to participate in the November 25
meeting.


U.S. Department of Justice                                                                  7
Office of the Inspector General
Evaluation and Inspections Division
                  On December 4, 2008, t h e - followed up on the
meeting with an EC to the 31 field offices with local CAl~
their districts and to OPA. The EC outlined seven s t e p s -
offered as guidance to "assist each field office in making official
notification [of the FBI's policy] to the CAIR chapter" in the field office's
area. The steps included scheduling a meeting with CAIR at the FBI field
office (rather than in CAIR facilities) to discuss the policy, emphasizing
that the policy was FBI Headquarters driven, describing in a limited way
that CAIR's status as an unindicted co-conspirator required the FBI to
"cease contact with CAIR as an organization," and encouraging the local
CAIR chapter to contact CAIR national leadership to resolve the issues
with the FBI in Washington. The EC then provided two             ts of contact
at                  to address      stions about
                                           The EC noted that the AD f o r -
                       ting attendees "to comply with the guidelines of the
                     within 45 days by notifying their local CAIR chapters
about the national policy and reporting back to                     that they
had done so. Field offices without local CAIR contacts were required to
confirm that notification was not necessary.

                 When we asked the former AD f o r - who was the
Deputy Assistant Director (DAD) f o r - at the tim~ued
multiple ECs over a 4-month period regarding the -                        he
said that some of the field offices were reluctant to go along with the
-        initially.s For example, on October 27, 2008, the Los Angeles
SAC sent an e-mail to his staff stating that the field office's "position is
that we will decide how our relationship is operated and maintained with
CAIR barring some additional instruction from FBI Headquarters." The
SAC further stated: "Please instruct your folks at this time that they are
not to abide by the [October 24, 2008, EC from-], but that their
direction in regards to CAIR will come from the LA Field Office front
office." We learned from                  interviews that several other
SACs also were reluctant to follow the                       The former AD
also said that field office managers believed the           was being run

              8 He served as Assistant Director of the FBI's

from January to December 2010.


U.S. Department of Justice                                                   8
Office of the Inspector General
Evaluation and Inspections Division
b y - rather t h a n - and "they did not like answering to -       The
former AD stated that the ECs were meant to demonstrate that it was a
        issue, rather than an issue that affected only a -


                  According to the former AD, the ECs contained "kid glove"
language to make it more palatable to the field offices, who did not want
to be controlled by a perceived -      policy and were interested in
protecting their own community outreach activities with the Muslim
community, which they also regarded as good sources of information. He
said that the language in the ECs was kept fairly general because no
guidance could be comprehensive enough to cover every situation the
field offices might encounter. For that reason, the 2008 ECs provided
the field offices with points of contact in -   and -     so that field
personnel could obtain guidance regarding how to handle specific
outreach activities that might involve CAIR.

   Post-2008 Media Guidance from the FBI Office of Public Affairs
Regarding Muslim Outreach

      According to FBI documents, in March 2009, legal counsel for
CAIR wrote to the Attorney General seeking information regarding the
FBI's suspension of formal relations with CAIR. Additionally, a coalition
of Muslim American groups issued a public statement claiming that the
FBI's treatment of CAIR, among other issues, disrupted attempts to grow
trust between the FBI and the Muslim community. On April28, 2009,
OPA's National Press Office issued the first of five FBI-wide "Public
Mfairs Guidance" documents disseminated to the field offices through
their media coordinators to provide guidance on handling media and
other inquiries on the topic of Muslim outreach.

       In the background section of the guidance, OPA noted that while
both FBI Headquarters and the field offices continued to have regular
discussions with members of groups representing the Muslim American
and Arab American communities, "the FBI has had to adjust the
parameters of its relationship with CAIR." The guidance, which was
issued to FBI field office media coordinators, contained suggested
responses to anticipated questions from the media regarding the FBI's
relationship with CAIR. The guidance also included summaries in the
form of various questions and answers regarding the FBI's interactions
with and outreach efforts to the Muslim community.

     On July 10, 2009, OPA issued additional FBI-wide public affairs
guidance on the topic of "Muslim Outreach/FBI-CAIR Relationship."

U.S. Department of Justice                                               9
Office of the Inspector General
Evaluation and Inspections Division
Similar to the April 2009 guidance, the document contained a series of
15 questions and answers with talking points related to handling
inquiries regarding matters such as the USA PATRIOT Act, FBI authority
to enter mosques, outreach efforts to Muslim community leaders, and
the basis for the FBI's suspension of "all formal contacts" with CAIR
following the Holy Land case. The guidance specifically stated that, until
the FBI could determine whether there continued to be a connection
between CAIR or its executives and Hamas, "the FBI does not view CAIR
as an appropriate liaison partner" for non-investigative activities.

      On January 22, 2010, OPA issued "updated guidance" on handling
inquiries on the topic of Muslim outreach. In that document, field offices
were provided a "Press Response" that included the following language:
       Our outreach efforts range from formal national-level relationships with
       established groups, to local multi-cultural advisory boards, Citizen
       Academies and youth activities. Most important are the individual
       relationships established by personnel in the field with leaders in their
       local communities.

       The January 2010 guidance provided another series of talking
points that included matters related to CAIR. The guidance repeated
that the FBI did not consider CAIR "an appropriate partner for formal
liaison activities" at that time.

       On March 29, 2010, OPA again updated its guidance regarding
handling inquiries related to Muslim outreach. The talking points
reiterated that while the FBI did not consider CAIR to be an appropriate
partner for formal liaison activities, "(a]s a practical matter,
representatives of CAIR and the FBI have attended the same events in
certain places at certain times."

       Finally, on March 11, 2011, OPA issued additional guidance on
handling inquiries related to Muslim outreach, largely reiterating the
talking points regarding CAIR in the guidance it had issued a year earlier
to the effect that CAIR was not an appropriate partner for formal
activities, but that as a practical matter, CAIR representatives and FBI
officials did attend events at the same time.

                 The OPA guidance provided points of contact at OPA for
questions regarding inquiries related to Muslim outreach and
interactions with CAIR. They did not refer to ~ ECs or explicitly
state that field offices were to coordinate with .-with regard to non-
investigative contact with CAIR.

U.S. Department of Justice                                                         10
Office of the Inspector General
Evaluation and Inspections Division
                  To determine why OPA, rather than -       was providing
answers to guestions about interactions with CAIR, we asked the former
AD f o r - who stated that he did not view the FBI's -            solely as
an issue for -       According to the former AD, some of the field offices
saw the policy as an obstacle to the overall implementation of their
outreach strategy for the Muslim community. He stated that many of the
field offices' questions related to community outreach and were thus
appropriate for OPA to answer. He added that he believed there is
sometimes shopping for answers, so if"... -       didn't give you the
answer you wanted ... pick up the phone and call a different authority
at headquarters . . . that is not uncommon in the FBI."

                He also said that- was unable to provide strong
oversight of OPA's advice to the field offices because o f -
overwhe~ day-to-day workload. He acknowl~at, while he
thought- embraced, in the~at least, the -                    that - w a s
trying to deploy ... -    being -      as busy as it is, I think was
hampered by the fact that they weren't able to provide the strong
program management and guidance and central control that they should
have."

               OPA told us that they believe they consulted with - i n
formulating the additional guidance, though they could not locate any
e-mails or other documentation reflecting this.

               The former Unit Chief for OP~lations
Unit during the 2008 implementation of t h e - who
remai~osition until June 2011, told us he did not consult
w i t h - when a field office called OPA seeking advice regarding
interactions with CAIR. He said there was no reason for him to consult
outside OPA about how to answer a question from the field because he
was "intimately knowledgeable" about the policy, having been involved in
the discussions regarding the impact of the policy on OPA's Community
Relations Program.

                 2011 EC


                 The 2008                   promulgated b y -
remained in effect and unchanged until June 23, 2011, whellllll sent
an EC to all field offices and OPA, the synopsis of which indicated that its
purpose was "to reiterate the FBI's guidance on engagement with [CAIR}

U.S. Department of Justice                                                11
Office of the Inspector General
Evaluation and Inspections Division
~opriate coordination with
-                    Office of Public Affairs (OPA)." The EC restated, in
bold text, the prior guidance on not having formal liaison relationships
and terminating community outreach activities with CAIR, adding that
"[a}ny deviation from this guidance must be coordinated with, and
authorized by, the Assistant Director o f . , The former AD o f -
told us in substance that the               consultation     ·      t with



The June 2011 EC also reiterated that CAIR was not prohibited from
"maintaining a relationship with the FBI regarding civil rights or criminal
violations; however, civil rights and criminal squads should be cognizant
CAIR has exploited these relationships in the past." It further added:

       This guidance does not prohibit FBI attendance at public events at which
       CAIR officials are, or may be, present if CAIR is not a sponsor of the
       event. In such cases, FBI personnel should be sensitive to potential
       exploitation of the FBI by CAIR at these events.

                The June 2011 EC removed -          altogether from the
points of contact for field office questions about interactions with CAIR.
Instead, the EC now instructed the field offices to contact both -     and
OPA. The former AD a t - told us that he thought requiring contact
with OPA was appropriate because of the intersecting community
relations issues involved with such interactions. The EC concluded by
reiterating that "any deviation from this polic~st be coordinated with,
and authorized by, the Assistant Director" o f -

       When we interviewed the individual who has served as OPA's CAIR
point of contact since July 2012, he told us that he believes he would be
the field offices' first point of contact for community outreach questions
regarding CAIR because most of the engagement with the Muslim
community takes place through the outreach program that OPA oversees
at FBI Headquarters. He said he could not specifically recall receiving
any requests for guidance on CAIR interactions since the June 20 11 EC
was issued.
                When we interviewed the individual who has served as
-     CAIR point of contact since March 2012, she said she did not
know who the OPA point of contact was regarding field office interactions
with CAIR. She told us about a field office request for guidance that had
been referred to her by -    that she did not discuss with OPA. In fact,
she said that she has not discussed CAIR interactions in the field offices

U.S. Department of Justice                                                        12
Office of the Inspector General
Evaluation and Inspections Division
with anyone from OPA since she has been in her current position.


                We found that in three of the five specific incidents
discussed below, there was a failure to comply with the requirement that
non-investigative interactions with CAIR be coordinated with-
pursuant to the 2008- ECs. Additionally, while we did not analyze
specific incidents where coordination was an issue since the June 2011
reissuance of the                     our interviews with personnel from
OPA and -      indicate that they did not contemplate coordinating
between each other with regard to any inquiries from the field as stated
in the synopsis in the June 2011 EC.




U.S. Department of Justice                                            13
Office of the Inspector General
Evaluation and Inspections Division
listserv, with the subject, "[Name deleted} to Moderate FBI Lecture at
AIC - Tonight," that contained the flyer listing the CAIR Chicago Civil
Rights Director as the moderator for the lecture. The Community
Outreach Specialist told the OIG that she had received the e-mail from
CAIR, but that she did not forward the e-mail to the SAC or discuss it
with him. When we asked if she had any discussions with the SAC
about the event, she told us that the SAC was at "too high a level" and
that she assumed the Media Coordinator/Public Affairs Agent would
have been on the e-mail and would have been the appropriate person to
speak to him.

       In his interview with the OIG, the SAC said that on the evening of
July 27, 2010, as he parked his car and began walking to the event, he
received a telephone call from the Chicago Field Office's Media
Coordinator/Public Affairs agent, who the SAC indicated was aware of
the policy and wanted to alert him that the CAIR Civil Rights Director
would be introducing him at the speaking engagement. The SAC said
that it would have been embarrassing to back out and that, had he
known earlier that day, he might have canceled or requested that
someone else serve as the moderator. The SAC also told us he and the
CAIR Civil Rights Director knew each other and he was pleased she
would be making the introduction. He denied any advance knowledge
that someone from CAIR would be introducing him at the event and
added that it was not a CAIR-sponsored event.

      According to the SAC, there were approximately a dozen people at
the event, and the CAIR Civil Rights Director introduced him in a
complimentary way. Shortly after the event, CAIR-Chicago posted a
description of the event on its website with a photograph of the SAC
talking to the class:

      On Tuesday, July 27th, CAIR-Chicago's Civil Rights Director [name
      deleted] moderated an event featuring a speech by (the) Special Agent in
      Charge of the FBI's Chicago Field Office, at the American Islamic College.
      The speech and subsequent discussion focused on the FBI's historical
      and current role in the United States and how the bureau works with the
      Muslim community. During her introduction, (name deleted) discussed
      how the FBI interacts with the Muslim community.... The Question
      and Answer period following [the SAC's) speech was lively .... "9

     In his interview with the OIG, the SAC denied the characterization
on CAIR's website that the CAIR Civil Rights Director "moderated" the

      9   http://cairchicago.org accessed October 11, 2012.


U.S. Department of Justice                                                         15
Office of the Inspector General
Evaluation and Inspections Division
event. He told us that she only introduced him and made a few
statements, and he noted that he had "no control over what CAIR posts
on its website."

    OIG Analysis

                 In this incident, there was no attempt to coordinate with
-      However, we recognize that the SAC was notified of CAIR's
involvement in the program at the last minute and had to make a
judgment call. While we do not question the decision that was reached
under these unique circumstances, had the SAC learned sooner the
identity of the person who would introduce him, we believe that
coordination with- should have occurred.1o The end result of this
incident- CAIR posting on its website of a photograph showing the SAC
speaking at the event and a description of CAIR's Civil Rights Director
moderating h~the sort of exploitation of contact with the
FBI that t h e - was intended to avoid.

   Incident 2: New Haven Field Office:
CAIR Trainers at a Diversity Training Workshop
(October 2010)

    Synopsis

      On October 29, 2010, the FBI New Haven Field Office co-
coordinated a diversity training workshop with the Muslim Coalition of
Connecticut (MCC) titled "Bridging the Gap between Law Enforcement
and the Muslim Community," for federal, state, and local law
enforcement officers, including approximately 12 FBI employees.ll The
training was held at a non-FBI training facility. Two of the six trainers at
the event were local CAIR chapter leaders.

               to In reaching this conclusion, we note that this same SAC told us with
regard to Incident 3 below that he believed that the various ECs from FBI Headquarters
regarding interactions with CAIR were merely "guidance" and not required policy. While
the term "guidance" was used in the ECs, we do not believe that it should have been
viewed as any~ory, particularly in light of the SAC's own
attendance a t - - - - - meeting in November 2008 on the subject. The
SAC for the Chicago Field Office cited in this event retired from the FBI in September
2012.

       u According to the group's website, the stated mission of the Muslim Coalition
of Connecticut is to bring together Muslims in the state and to provide an
understanding of Islam and Muslims through education and outreach.


U.S. Department of Justice                                                          16
Office of the Inspector General
Evaluation and Inspections Division
    Facts Leading Up to the Event

       On February 6, 2010, a Liaison Agent in the FBI's New Haven Field
Office met with the Connecticut Muslim Leadership CounciJ.12 The
Leadership Council asked the agent if the FBI would be receptive to
Muslim cultural training from speakers affiliated with the MCC. On
February 22, 2010, the Liaison Agent met with members of the MCC to
discuss Muslim cultural diversity training for the FBI New Haven Field
Office agents and staff. The training session was tentatively planned for
May 2010.

               In April2010, the Liaison Agent spoke again with MCC
members and discussed the proposed training date, potential topics, and
speakers. During this period, he learned that two of the six proposed
speakers were the CAIR Connecticut chapter President and a CAIR
Connecticut board member. The Liaison Agent said he informed the
MCC liaison that the CAIR speakers could not ~ipate in the training
because of the policy set forth in the ECs from -

       Shortly afterward, the Liaison Agent met with members of the
Muslim Leadership Council in Connecticut. Members of the Council
expressed concern about the FBI's position and noted that CAIR's board
members were also leaders in the Muslim community and to preclude
them from the training would not only insult them but would put the
MCC in an awkward position. In an e-mail to the SAC dated May 7,
2010, the Liaison Agent said he told the Muslim Leadership Council that
he had asked FBI Headquarters to clarify its directive not to have "formal
relations with CAIR," and Headquarters' instruction was not to allow
CAIR personnel on FBI property, or to participate as a member of the
FBI's Multi-Cultural council, or to allow CAIR representatives to be
instructors at the proposed training.

                On M~e Liaison Agent sent an e-mail to FBI
Headquarters' OPA, -                  In the e-mail, the Liaison Agent
asked for their help to address three CAIR-related issues, including the
MCC's continuing request that CAIR be a part of the proposed training
course. The OPA Unit Chief responded to the e-mail by calling the
Liaison Agent the same day. In an e-mail that afternoon to the SAC of

        12 According to the Liaison Agent, his primary role was to build bridges with the
Muslim community and build a professional, healthy, overt relationship with Muslim
leaders in the community. He said he conducted training for Muslim community
groups.


U.S. Department of Justice                                                             17
Office of the Inspector General
Evaluation and Inspections Division
the New Haven Field Office, the Assistant Special Agent in Charge
(ASAC), and his immediate supervisor, the Liaison Agent summarized his
conversation with the OPA Unit Chief, stating:

       A CAIR member-at-large could                        ... however, based
       on the current reading of the                           directive, a
       leader of CAIR should clearly not be in FBI-space ... and a Board of
       Director of CAIR member in our space would likely be at the discretion of
       the SAC.

       When we asked the OPA Unit Chief about his direction to New
Haven, he told us that while he could not recall this specific
conversation, "My guidance is the same guidance I've given ... as long
as it's not sponsored by this particular organization [CAIR], you're fine.
As long as you're not inviting them into our house, you're fine. We don't
attend their events, they don't attend ours."

                 In a follow-up e-mail on May 26, 2010, the Liaison Agent
informed his~hat he had spoken again with OPA and with
agents f r o m - While the e-mail references a discussion
regarding another of the three issues identified in his May 14 e-mail, it is
not clear from the Liaison Agent's May 26 e-mail whether he also spoke
with the                agents about the training program. We spoke with
one of the        agents identified in the e-mail, who indicated that he
specifically recalled speaking with the Liaison Agent from New Haven


-13
about the planned training in this instance, and the . .~said he
told the Liaison Agent that the training was against ~
             When we asked the -

permissible if it was offsite, the -
                                         agent if he was aware that the OPA
Unit Chief had told the Liaison ~t that training by CAIR was
                                        agent responded: "What does
location have anything to do with what it says in the policy?" The . .
agent did not recall a conversation with the Liaison Agent about offsite
training. T h e - agent added that, as a general matter, OPA was
always trying to find some way to get around the policy, which he said
OPA did not like from the beginning. The- agent told us that he did
not recall speaking with the Liaison Agent. The Liaiso~nt told us
that he did not recall whether he had spoken with the -        agent or the
-agent about the program.



              13 The . . agent indicated that, as a general matter, he did not recall
speaking with agents from the field who supported the policy, but he did recall speaking
with agents who were not happy about it.


U.S. Department of Justice                                                           18
Office of the Inspector General
Evaluation and Inspections Division
       In an e-mail dated June 10, 2010, the Liaison Agent informed the
SAC that the Muslim Leadership Council still wanted to conduct the
training for the FBI. The Liaison Agent wrote that he supported the CAIR
board member serving as a trainer, stating, "I personally believe that
[name deleted] is honorable and will not use any of his time in our office
to promote a CAIR agenda." In the e-mail to the SAC, the Liaison Agent
reiterated OPA's view that the SAC had discretion to decide whether a
CAIR board member could participate in an event in FBI space. The
Liaison Agent also notified the SAC that he was prepared to manage the
training and take responsibility for its success or failure.

       According to the SAC, the New Haven Field Office had recently
received training on "Islamaphobia," so she suggested in late June or
early July 2010, that the audience be expanded to include other federal,
state, and local law enforcement officers and that the event be moved to
an offsite location. She also told the OIG that she did not view the
training as an FBI-sponsored event and that, had it been one, the field
office's executive management would have been in attendance and
provided remarks.

      In an e-mail dated July 15, 2010, to his supervisor and others in
the New Haven Field Office, the Liaison Agent stated:
      I'm putting together a training seminar for federal, state, and local LEOs
      [law enforcement officers! that will take place in September or October
      and will focus on the Islamic faith. I expect to coordinate with the POST
      Academy to co-host this seminar at their Meriden facility . . . . What
      would help me most at this point is a list of questions I topics you would
      like addressed . . • . I intend to design it as a . . . course with focused
      topics of concern to LEOs .••. I will be sharing your comments with
      other seminar organizers and speakers to design a tailored agenda to suit
      our needs . . . .

       Between July and September 2010, the Liaison Agent consulted
with the MCC several times to discuss and develop the training topics
and syllabus, and solicited input for topics from the New Haven Field
Office. On September 8, 2010, the Liaison Agent sent an e-mail to the
SAC, ASAC, and several others in the New Haven Field Office informing
them that the training event would be held on October 29, 2010. The
e-mail included the seminar title, tentative topics and schedules, and the
names of the six speakers, including the title of the CAIR Executive




U.S. Department of Justice                                                          19
Office of the Inspector General
Evaluation and Inspections Division
Director.14 The Liaison Agent sent several more e-mails to his
supervisors in September and October describing the training event and
listing two of the speakers as CAIR officials.

       In e-mails to the Liaison Agent, some staff in the New Haven Field
Office expressed concern about having two CAIR officials providing
training. For example, when the Liaison Agent's supervisor asked if the
SAC was "OK with that?" The Liaison Agent responded, "Yes, it is offsite,
non-FBI space and anyone can join in." He noted that the SAC had
asked him to "promote the seminar as an all LEO event . . . ."

      In an e-mail dated September 30, 2010, the Chief Division Counsel
(CDC) noted that two of the speakers had ties to CAIR, including its
Executive Director, and that the FBI Headquarters guidance was that it
did not consider CAIR an appropriate partner for formal liaison activities
and events. The CDC asked the Liaison Agent for confirmation that the
FBI was neither sponsoring the event nor partnering with CAIR for the
event. To address these concerns, the Liaison Agent moved the listing of
the two MCC organizers of the event to the top of the training
announcement flyer to more prominently display them. He sent the CDC
an e-mail asking if the changes to the flyer were acceptable, and the CDC
responded affirmatively.

       In addition, in an e-mail dated October 6, 2010, the ASAC revised
the Liaison Agent's introductory paragraph that accompanied the
training flyer to remove any reference to the New Haven Field Office's
involvement in organizing and developing the event.

       On October 29, 2010, the training was held at the POST Academy
in Meriden, Connecticut. The title of the training was "Bridging the Gap
between Law Enforcement and the Connecticut Muslim Community,"
and the training included topics such as lslamaphobia; Scriptural Issues
and Hadith Authenticity; Misconceptions and Stereotypes; and the
Experience and Struggles of African American Muslims. At the
conclusion of the training, the New Haven Training Officer sent an e-mail
to the FBI Director's Office and OPA notifying them of New Haven's
attendance at the training seminar "hosted by the FBI and Muslim
Coalition of Connecticut" and "facilitated" by the Liaison Agent.



        14 The title of the second CAIR leader was not included on the September 8
e-mail, though it was included on subsequent e-mails and on the training flyer.


U.S. Department of Justice                                                           20
Office of the Inspector General
Evaluation and Inspections Division
       On November 1, 2010, the Liaison Agent memorialized the training
in an in-house memorandum approved by his supervisor. The Liaison
Agent detailed his efforts in coordinating the training, writing that he
"developed, organized, and attended the seminar." He wrote that he
worked with the MCC and developed a syllabus that included six
speakers, five selected by the MCC, including the Executive Director of
CAIR's Connecticut chapter, and one instructor he selected. The Liaison
Agent wrote, "Approximately 4 7 LEOs and LEO agency employees
attended the seminar, including 12 from the FBI ...."
    OIG Analysis

                While in this instance the New Haven Field Office
contacted -      among othe~arding the training, we found they did
not abide by the opinion o f - and, instead, followed the advice
received from OPA. The guidance from OPA resulted in an FBI
interaction with CAIR that we found to be inconsistent with the -
-        set forth in the 2008 ECs.

                The impetus for the training in this particular instance
came from the MCC, which approached the FBI in February 2010 to ask
whether it would be receptive to Muslim cultural training. When the
Liaison Agent learned in March 2010 that the MCC proposed two
speakers affiliated with CAIR for the        he told the MCC contact in
April2010, consistent with the                      that CAIR speakers
could not participate in th~ Liaison Agent sent an e-mail
on May 14,2010, to O P A , - to request guidance on the
training issue as well as two other CAIR-related issues. T h e - agent
told us that he specifically advised the Liaison Agent that the training
would be violative of the FBI's policy on interactions with CAIR.
However, the Liaison Agent said he received guidance from OPA stating
in substance that CAIR could participate in the training if it was held off
site. The Liaison Agent summarized the OPA Unit Chiefs view in an
e-mail to his supervisors that a CAIR leader could provide the training,
but not in FBI space, and a CAIR board member could be present in FBI
space at the discretion of the SAC. We found no support for this view.


                The SAC suggested that the training be expanded to
include participation by other federal, state, and local law enforcement
officers and moved to a non-FBI facility. However, we do not believe that
OPA's advice that this would be permissible was consistent with the plain
language or clear intent of the FBI's                     which was to
prohibit CAIR from participating in such cultural sensitivity training with

U.S. Department of Justice                                               21
Office of the Inspector General
Evaluation and Inspections Division
the FBI. The topics covered by the training were intended to sensitize
law enforcement to Muslim culture, a type of cultural sensitivity training
within the non~each activities from which CAIR was
barred by t h e - CAIR was selected as one of the
representatives of the Muslim community to provide training at this
event. The CAIR speakers were identified on the training flyer as the
Executive Director and Board Member of the Council on American-
Islamic Relations, Connecticut Chapter, confirming that their
participation was in an official, not individual, capacity.

                 According to the FBI Liaison Agent's written description of
his role in several e-mails and memoranda, he participated actively in
organizing the training seminar by developing the training topics and
syllabus, selecting one of the six speakers, locating the training venue,
identifying and inviting the law enforcement agencies, and creating and
causing the dissemination of the training flyers. The New Haven training
officer stated in a contemporaneous EC that the FBI had "hosted" the
event with the MCC and that it was "facilitated" by the Liaison Agent.
Under these circumstances, we found that the concerns about non-
investigative interactions with CAIR underlying the
were directly implicated by the public interaction with CAIR in this
training event.

                 OPA's Public Affairs Guidance on Muslim Outreach,
including contact with CAIR, was the most recent FBI Headquarters voice
at the time the event was planned in 2010, almo~ears after the
                   was implemented through the -           ECs in 2008. The
OPA Public Affairs Guidance listed OPA personnel as points of contacts
for any questions from the field offices. The Liaison Agent and,
ultimately, the New Haven Field Office followed the guidance received
from OP                   the Liaison         had received contrary guidance
from                                                             and for
coordination with the field under the                         CTD did not
ensure that the field office restricted its activities accordingly. The OIG
believes that, in this instance, the muddled lines of authority allowed the
shared desire of OPA and the field office to foster interactions with the
Muslim community to effectively undermine the intent of the 2008
                    to sever such non-investigative community relations
activities with CAIR.




U.S. Department of Justice                                               22
Office of the Inspector General
Evaluation and Inspections Division
   Incident 3: Chicago Field omce:
DHS Quarterly Chicago Roundtable
(December 2010t

    Synopsis

       During our review of FBI Chicago Field Office documents in
connection with Incident 1 discussed above, we learned that the
Department of Homeland Security (DHS) Office for Civil Rights and Civil
Liberties sponsored a Quarterly Community Engagement Chicago
Roundtable (Roundtable) that many Chicago area government and
community organizations attended. According to FBI and DHS
documents, the purpose of the Roundtable was to bring together
American-Arab Muslim, South Asian, Middle Eastern, and Sikh
community leaders with government representatives to discuss issues
related to homeland security, civil rights, and other areas as well as roles
and responsibilities of law enforcement, immigration, and other
government officials. The Chicago Field Office SAC informed us that he
occasionally hosted this Roundtable at the Chicago Field Office building.
On December 2, 2010, the FBI Chicago Field Office hosted the DHS
Quarterly Roundtable in FBI space at its field office building, and the
Chicago chapter Civil Rights Director of CAIR was listed among the DHS
invited guests. However, an FBI Chicago Community Outreach Specialist
told us that the CAIR official, although invited, did not attend the
Roundtable.

    Facts Leading Up to the Event

       We asked the SAC if CAIR was permitted in FBI office space when
he hosted the Roundtable. He stated that if DHS considered CAIR
officials to be part of the community and invited them to the Roundtable,
the FBI would not deny them entry at the door. The SAC also stated that
if CAIR officials came to the Chicago Field Office, he was not required to
report it to FBI Headquarters, just as he was not required to report a
meeting with CAIR on a civil rights matter. IS He stated such notification
would be impractical given the realities the Field Office encountered. He
said that he viewed the various ECs from FBI Headquarters regarding
interactions with CAIR as "guidance" and not policy, and that he


        IS The field office did send an EC reporting the roundtable event to the
Director's Office at FBI headquarters after the event occurred, but it did not mention
that a CAIR representative had been invited to attend.


U.S. Department of Justice                                                               23
Office of the Inspector General
Evaluation and Inspections Division
therefore was not required to contact or coordinate with Headquarters.


    OIG Analysis

                As with Incident 1 discussed above, there was no effort
made by the Chic~ield Office to comply with the coordination
requirement with -      regarding a proposed interaction with CAIR. Had
the CAIR official attended the Roundtable event hosted at the FBI
Chicago Field Office, the OIG believes this would have been inconsistent
with the intent of the                   to prohibit CAIR officials from
having access to the FBI and its field offices that they could tout in
public.

                 In his interview, the SAC likened this Roundtable meeting
to a town hall event. The October 24, 2010, EC from- states, "CAIR
is not excluded from open forums that are not organized/ sponsored by
the FBI." However, the DHS Roundtable was open to invited guests, as
distinct from an open town hall forum open to the public. Also, because
the event was co-hosted by and held at the FBI's Chicago Field Office, it
reasonably gave the appearance that it was co-sponsored by the FBI.
The Chicago SAC did not consult or coordinate this meeting with -       or
receive authorization from -       to allow a CAIR official to attend a
meeting at the FBI's Chicago Field Office. The SAC told us he would not
have consulted with FBI Headquarters regarding this event under any
circumstances because he viewed the policy as "guidance" and did not
believe that it required such consultation. As stated with regard to
Incident 1 above, while the term "guidance" was used in the EC, we do
not believe that the EC could have been viewed as anythin~ than
~cularly in light of the SAC's attendance a t -
- m e e t i n g in November 2008 on this same subject.
While the CAIR representative ultimately did not attend the Roundtable,
the failure to follow the ECs in this instance could have led to an
interaction that we believe would have been inconsistent with the




U.S. Department of Justice                                               24
Office of the Inspector General
Evaluation and Inspections Division
   Incident 4: Philadelphia Field Office:
CAIR Attendance at Philadelphia CREST Training
(December 2010)

    Svnopsis

       On December 11, 2010, the FBI Philadelphia Field Office held a
Community Relations Executive Seminar Training (CREST}, a
subprogram of the FBI Citizen's Academy, at a Philadelphia area Islamic
center. The FBI allowed a Philadelphia-CAIR official to attend this
training event as an invited guest.

    Facts Leading Up to the Event

       In 2006 the FBI Headquarters' OPA created CREST as a
subprogram within its Citizen's Academy Program to increase the
number of citizens exposed to the day-to-day operations of specific parts
of the FBI. According to FBI documents and its website, CREST is a
shorter, more focused version of the Citizen's Academy, conducted in
partnership with a community group at an offsite location, and sessions
are customized to meet the needs of each community group host.
CREST classes are taught by FBI leaders, senior FBI Special Agents,
Squad Supervisors, or subject matter experts. According to a
Philadelphia Field Office e-mail describing the program, the FBI does not
conduct background checks or otherwise vet the individuals participating
in the CREST program.

      On October 12, 2010, the Philadelphia Field Office Public Affairs
and Media Relations Coordinator (hereafter referred to as Philadelphia
Public Affairs Coordinator} sent an e-mail to the AD of OPA stating,
"Philadelphia will be conducting a CREST with eight to twelve leaders
from the Muslim community in our territory. Is there a problem if one of
the attendees is from CAIR?"

      Later in the day, the Philadelphia Public Affairs Coordinator also
sent an e-mail to a Philadelphia Supervisory Special Agent and copied
OPA officials about the upcoming CREST program. The e-mail stated
that a proposed participant was the Secretary of the Board of Directors of
the Pennsylvania chapter of CAIR. The Philadelphia Public Affairs
Coordinator asked the Supervisory Special Agent to conduct background
research on the CAIR Board Secretary "to see if there is, in fact, some
reason or justification for our prohibiting Mr. {name deleted] from

U.S. Department of Justice                                             25
Office of the Inspector General
Evaluation and Inspections Division
participating in the upcoming CREST program." The Philadelphia Public
Affairs Coordinator's e-mail reminded all of the e-mail recipients that
"several years ago, the FBI suspended our formal relationship with, and
ceased official contacts with CAIR." The e-mail also stated, "At this time
the FBI does not consider CAIR an appropriate partner for formal liaison
activities and events."

       In the e-mail, the Public Affairs Coordinator also summarized a
discussion he had that morning with the AD and a Unit Chief of OPA. As
a result of that discussion, he said in the e-mail, "we are leaning
towards" allowing the CAIR official's participation in the CREST, "absent
any compelling reasons not to." In the e-mail, the Philadelphia Public
Affairs Coordinator outlined the argument in favor of allowing the CAIR
official's participation in the CREST. He stated that at the time Muslim
groups around the country were claiming they were being unfairly
targeted by the FBI. He wrote that if the field office was going to exclude
the CAIR official from the CREST, he wanted to ensure there was
"sufficient justification" for doing so, rather than "simply because of his
role in CAIR." He also mentioned that CAIR was not participating as a
sponsor or organizer of the event. He noted that the CAIR official would
be allowed to attend CREST "because of his role in the Muslim
community and not because of his volunteer role on the CAIR Board of
Directors." The Public Affairs Coordinator's e-mail concluded that the
CAIR official's "participation in the CREST would not, on its face, violate
the Bureau policy with respect to the termination of our relationship with
CAIR."
      On October 18, 2010, the Philadelphia Public Affairs Coordinator
received an e-mail from an OPA Supervisory Special Agent stating that he
had discussed the matter with the AD for OPA and the incoming SAC
being assigned to the Philadelphia Field Office. According to the OPA
Supervisory Special Agent, they had agreed that the CAIR official "can
attend the CREST as he will be one of a number of community
representatives present; and a significant focus of the CREST will be Civil
Rights." The CAIR official attended the CREST, which took place as
scheduled in Philadelphia on December 11, 2010.

      On December 15, 2010, CAIR Philadelphia posted an article on its
website titled, "CAIR-PA Participates in FBI Community Relations
Training Program." The article described the purpose and contents of the
training and stated that CAIR-Pennsylvania staff and board members
attended along with other Muslim leaders. CAIR provided a link to the
CREST training program on the FBI's website, FBI.gov.


U.S. Department of Justice                                               26
Office of the Inspector General
Evaluation and Inspections Division
               On December 17,2010, an outside news source sent an
e-mail to a . . Supervisory Special Agent
_ . - r e l a t e d to CAIR officials. The e-mail contained a description
of the recent Philadelphia CREST event. That same day, the -
Supervisory Special ~e e-mail to OPA asking, "Is this in
conformity with t h e - The Assistant Director for OPA
responded that it did "conform," adding that "the event wasn't an FBI
training program."

     OIG Analysis

                This incident again exemplifies a failure to coordinate
with- with regard to a planned non-investigative interaction with
CAIR as required by the 2008- ECs. The OIG believes that
permitting a CAIR Board Secreta~hiladelphia CREST
program is inconsistent with t h e - set forth in those ECs.
Two of the four specific interactions with CAIR that FBI field offices were
instructed to refrain from in the

representing the Muslim community at any FBI-sponsored events.


       While CREST is not the Citizen's Academy, the FBI's own website
indicates that CREST was created by the FBI as a subprogram of the
Citizen's Academy. The FBI serves in partnership with community
groups to provide this program and the classes are taught by FBI
leaders, supervisors, and senior Special Agents. The OPA's Reference
Guide describes CREST as a "shorter, more focused version of the
Citizen's Academy." Graduates of the training have the opportunity to
join the Citizen's Academy.16

               It appears that OPA provided guidance that effectively
reversed the presumption against CAIR participation in non-investigatory

               16 The e-mails that we reviewed reflect that the Philadelphia Field Office
understood that the participation of a CAIR representative was controversial in this
context.            to an e-mail describing the event, the FBI did not ordinarily vet or
                                     on CREST participants, unlike the participants in the
                             n.,.....,,crra        However, in this case, the Philadelphia Field Office
                                                of the CAIR participant to see if there was any reason
                         ,......,~<Y'I"o. ...... Yet whether or~CAIR representative

                                        is irrelevant to t h e - - - - to deny the
organization access to the FBI in such non-investigative community outreach activities.



U.S. Department of Justice                                                                           27
Office of the Inspector General
Ev~uation and Inspections Division
FBI activities in this instance. OPA indicated that it wanted to ensure
that there was sufficient justification for excluding the CAIR participant
apart from his role in CAIR. Again, it is not surprising that OPA, which
has overall responsibility for such outreach programs, or the field offices,
which carry them out, would have preferred a different approach than
was called for under the        ECs arising out of a specific
                                  Nevertheless, we believe that the
presumption in the         ECs is plainly against CAIR participation in
such non-investigative outreach programs absent coordination with-
and a determin~ by FBI Headquarters personnel
involved in t h e -

                 In the e-mail summarizing the discussion with OPA, the
field office represented that the CAIR official would be attending the
CREST because of his role as a Muslim community leader rather than
because of his role on the CAIR board of directors. Yet, the initial
request for advice asked if there was "a problem if one of the attendees is
from CAIR," not a more general religious community representative and,
in any event, the ultimate result was that a CAIR Board Member
participated in the program~blicly cited by CAIR on its
website, which is what t h e - was trying to avoid.


                 The field office also defended this individual's
participation by noting that a significant focus of the event was going to
be civil rights, and this was one of the factors ultimately cited by OPA in
approving the CAIR representative's involvement. In its response to the
draft of this report, the FBI emphasized that the CREST event was
intended to discuss civil rights through a grant that was funded to
promote racial healing programs. However, to read the exc~r
~civil rights complaints or matters contained in t h e -
- t h a t broadly would eviscerate the policy, and the OIG is
unaware of any investigatory content in the CREST program that would
have exempted it from the ~n on non-investigatory
outreach contained in t h e -




U.S. Department of Justice                                                28
Office of the Inspector General
Evaluation and Inspections Division
   Incident 5: Phlladelphia Field Office:
Pennsylvania Human Relations Task Force Meetings
(August 2011- June 2012)

    Synopsis

      Between August 2011 and June 2012, three Special Agents from
the FBI Philadelphia Field Office attended five meetings of the
Pennsylvania Human Relations Interagency Task Force on Community
Activities and Relations in Harrisburg (hereafter referred to as the
Pennsylvania Human Relations task force. CAIR personnel also attended
these meetings.l7

    Facts Leading Up to the Event

       An Acting Assistant Special Agent in Charge of the Philadelphia
Field Office informed the OIG that its personnel have attended the
Pennsylvania Human Relations task force meetings in Harrisburg on a
monthly basis for the last 7 years for liaison purposes related to its civil
rights program. The Acting Assistant Special Agent in Charge stated that
attending these meetings is important given the FBI's role and
responsibility as the only federal criminal investigation and law
enforcement agency with jurisdiction in this area. He stated that the
Philadelphia Field Office does not organize or plan the task force meetings,
nor does it control who the Pennsylvania Human Relations Commission
invites to its meetings. Numerous other state and private organizations
attend as do other law enforcement agencies, along with representatives of
the Department of Justice Civil Rights Division and the Anti-Defamation
League. He also stated that FBI policy does not preclude FBI attendance
at third party meetings that are also attended by representatives of CAIR.




        17 The Pennsylvania Human Relations Commission enforces the state's anti-
discrimination laws. The taskforce is made up of the Pennsylvania Human Relations
Commission, the Pennsylvania Attorney General's Office, the Pennsylvania State Police,
working in conjunction with other state and federal agencies, community organizations,
advocacy groups, local government and law enforcement agencies. The primary
function of the group is to quickly and appropriately address civil tensions when
conflicts occur, and to promote positive community relations among various groups in
order to prevent tension. http:/ fwww.phrc.state.pa.usjportal/server.ptjcommunity
/bias_hate_crimes/ 19235 accessed 8/13/2013.


U.S. Department of Justice                                                          29
Office of the Inspector General
Evaluation and Inspections Division
    OIG Analysis

                We found that FBI attendance at the Pennsylvania Human
Relations task force meetings, which were sponsored by the Pennsylvania
Human Relations Commission, were not inconsistent with the FBI's
                  on CAIR. The June 2011 -       policy in effect at the time
of these meetings in 20 11 and 20 12 did not prohibit "FBI attendance at
public events at which CAIR officials are or may be present if CAIR is not a
sponsor of the event."

                Since the Pennsylvania Human Relations task force and its
meetings were sponsored by a state government agency, and not by the
FBI or CAIR, the meetings were not held in FBI office space, the FBI did
not have a role in organizing the program, and the event was not otherwise
structured in a way that would give the public appearance of a liaison
relatio~ between CAIR and the FBI, we found that the risks identified
in the -   ECs were not present in this instance.




U.S. Department of Justice                                               30
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS


                 In 2008, the FBI developed a                       intended
to restrict FBI field offices' non-investigative interactions with CAIR. The
                    was based on concerns                 articulated    the




        regarding any such interactions.
reviewed, we concluded that the CAIR                    was not followed,
resulting in interactions with CAIR that were inconsistent with the policy.


                The policy broadly prohibited non-investigative
community outreach interactions with CAIR, such as attending CAIR-
sponsored events and allowing CAIR to attend FBI-sponsored events,
while permitting interactions regarding civil righ~
criminal investigations. The ECs containing the -
acknowledged that the -represented a significant deviation from
past FBI policy and that it affected longstanding relationships in the
field. As a result of these factors, -   issued several iterations of the
                   during the last half of 2008, laying out the reasons for
the new policy, with instructions for coordination with- regarding
contact with CAIR, and points of contact for any questions.


                Yet, despite (1) recognizing the importance of t h e -
-         by issuing these memoranda, (2) being aware of the apparent
reluctance of some field offices to follow the new policy, and (3) holding a
mandatory meeting with field office leadership from around the country
to address that reluctance and ensure national compliance, ~did
not conduct effective oversight to ensure compliance with th~
                  AD at the time of the incidents described in this report
essentially acknowledged this, telling us that -     was unable to provide
strong oversight concerning the advice provided to the field offices
because of an overwhelming day-to-day workload. The failure b y - to
follow through to ensure the requisite coordination with -       left the
implementation of the policy uncertain, resulting in contacts that we


U.S. Department of Justice                                                31
Office of the Inspector General
Evaluation and Inspections Division
-
reviewed with CAIR that we found to be inconsistent with the -


                The coordination with- for non-investigative CAIR
interactions that the 2008 ECs required did not always occur, even
though there is no question that the agents at -     would have had a
strong interest in participating in such discussions. In practice, we
found that the field offices at times contacted OPA rather than the -
-         points of contact listed in the ECs, and OPA did not
consistently coordinate with                when that happened. In fact,
the Unit Chief at OPA told us generally that such coordination with -
was unnecessary because of his "intimate knowledge" of the FBI's policy.


                 The implementation problems were exacerbated by the
guidance OPA issued in 2009 and 2010 regarding handling media
inquiries relating to interactions with CAIR. While the five Public Affairs
Guidance memoranda OPA issued on Muslim Outreach and CAIR
interactions during this period were not necessarily inconsistent with the
ECs, they listed OPA personnel as points of contact for field office
questions on such community outreach matters. We believe that this led
to confusion regar~thority and, coupled with the lack of
consultation w i t h - ultimately resulted in FBI interactions
with CAIR based on consultations with OPA that we believe were
inconsistent with the goal of the FBI's

                  Our review of the incidents described above shows that
because of its general role in community outreach matters and its
issuance of the more recent media guidance discussing FBI-CAIR
interactions, it was OPA that was sought o~ed guidance to
the field offices, without consultation with -               As a result,
contacts with CAIR were approved that we believe likely would not have
been approved at the time by                   We believe these contacts
were inconsistent with the terms of the                           set forth
and was supposed to enforce. It appears that the common mission of
OPA and the field divisions to foster interactions with the Muslim
                                   in some cases, effectively undermined
the intent of the FBI's                    to sever such non-investigative
community relations activities with CAIR.

               We acknowledge that no policy can account for every
possible circumstance and that some of the language employed in the
various communications from FBI Headquarters may have left some

U.S. Department of Justice                                                32
Office of the Inspector General
Evaluation and Inspections Division
room for interpretation. However, we believe that the lack of effective
oversight of the -          implementation, followed b y - ceding of
the field to OPA, led to the inconsistent adherence with policy evidenced
by several of the incidents we examined.
                 The FB~olicy was introduced 5 years
ago. Even though the -                      was reiterated in 2011 with
more explicit reguirements for approval directly from -         for any
deviations,                   did not demonstrate the commitment to
ensure the             effective implementation. We are concerned that,
due to frequent personnel rotations, retirements, and promotions, it is
possible that FBI staff may not be familiar with the background, history,
or objectives of the policy, or may continue to labor under
misapprehensions regarding its import or application. In addition, the
FBI needs to ensure that all appropriate personnel at Headquarters,
particularly OPA and -        and in the field offices are fully briefed on the
requirement to coordinate with one another. The FBI's re-promulgation
of the                    in June 20 11, reflects its belief that specific
considerations still require that non-investigative interactions with CAIR
be restricted on an ongoing basis. As a result, the FBI needs to ensure
that all relevant personnel are fully informed as to the objectives and
requirements of its current CAIR policy and to ensure its effective
implementation.

        OIG recommends that the FBI:

1.        Ensure effective implementation of FBI policy relating to
     interactions with CAIR, including the coordination mandated by the
     policy and the enforcement and oversight of compliance with the
     policy.

2.                   Provide comprehensive education on the objectives
     and requirements of the current CAIR                     to
     Headquarters and field office personnel who are likely to be involved
     with the application of the policy.




U.S. DepannnentofJustice                                                     33
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX I: FEDERAL BUREAU OF INVESTIGATION,S
                 RESPONSE TO DRAFT REPORT




                                                                   v.s. Oepar1111eat orJasdce
                                                                   Federal 8Wftu oflnvesdption

                                                                   WashinSfOn, D. C. 20S3S-0001
                                                                   September 17,2013


            The HO!lOJBble Michael E. Horowitz
            IDspcctor Oenetal
            Office of the Inspector Oeaeral
            U. S. Department of Justice
            9SO PeMS)'lvania Avenue, N.W.
            WashiDgtoa. DC 20S30

            Dear Mr. Horowitz:

                   1be Federal Bureau of Investigation (FBI) a~ates the opportunity to miew and
            reapond to your office's report entitled, Review ofFB/Intmzctloru with the Council on
            .41Mrican-lslamlc R•lotloM (CA1R).
                    We concur with your acknowledaement that "no poUey can account for evay possible
            ciJcumstance llld that some of the languase employed in the various communicaaions from FBI
            Headquarters may have left some room for in&crpretatioa." We note that the five iociclmts you
            .~evicwed are but a small ftac:tion oftbe FBI's outn:adl efforts with the Muslbn community over
            the past five yem.

                    Outruch to lhc Muslim community remains critical to the FBI's mission. Accordingly.
            we will CIISW'e our guidance oa CAJR liaison is quickly updated and clarified. In that regard, the
            FBI agrees with your rec:ommclldationa alld bas already taken steps to implement remedial
            ac:tioas.

                        Sbould you have any questloas. t'tel he to coatact m4t.



                                                                    st~
                                                                    Nancy McNamara
                                                                   Assistant Director
                                                                   lnapec:tioa Division




U.S. Department of Justice                                                                                       34
Office of the Inspector General
Evaluation and Inspections Division
                          APPENDIX II: ACRONYMS


AD          Assistant Director
ADIC        Assistant Director in Charge
ASAC        Assistant Special Agent in Charge

CAIR        Council on American-Islamic Relations
CDC         Chief Division Counsel
CREST       Community Relations Executive Seminar Training



DHS         Department of Homeland Security

EC          Electronic Communication
FBI         Federal Bureau of Investigation

HLF         Holy Land Foundation for Relief and Development
LEO         Law Enforcement Organization

MCC         Muslim Coalition of Connecticut
OIG         Office of the Inspector General

OPA         Office of Public Affairs

SAC         Special Agent in Charge




U.S. Department of Justice                                    35
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX III: CLASSIFIED SOURCE DOCUMENTS


FBI Electronic Communications (EC)

Date: 5/20/2008




Date: 8/15/2008




Date: 10/72008




Date: 10/24/2008




Date: 10/31/2008




Date: 11/12/2008




U.S. Department of Justice                             36
Office of the Inspector General
Evaluation and Inspections Division
-                Date: 12/04/2008




Date: 6/23/2011




Interviews

Date: 8/30/12
Title: Interview # 1



Date: 9/5/12
Title: Interview #2



Date: 7/24/13
Title: Interview #3



Date: 8/28/ 12.
Title: Interview #4




U.S. Department of Justice            37
Office of the Inspector General
Evaluation and Inspections Division
